No. 19-223

In the Supreme Court of the United States
JANICE SMYTH,
Petitioner,
v.
CONSERVATION COMMISSION OF FALMOUTH, et al.,
Respondents.
On Petition for Writ of Certiorari
to the Appeals Court of Massachusetts
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI
CURIAE NFIB SMALL BUSINESS LEGAL CENTER, SOUTHEASTERN LEGAL
FOUNDATION, AND OWNERS’ COUNSEL OF AMERICA IN SUPPORT OF
PETITIONER in the above-captioned case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for
the text, and 10 point for the footnotes, and this brief contains 4,988 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 16, 2019.
__________________________________
Robert H. Thomas
Counsel of Record
Damon Key Leong Kupchak Hastert
1003 Bishop Street, 16th Floor
Honolulu, Hawaii 96813
(808) 531-8031
rht@hawaiilawyer.com
Counsel of Record for Amici Curiae

